No. 19-832
IN THE

Supreme Court of the United States
————
APPLE INC.,
Petitioner,
v.
VIRNETX INC., LEIDOS, INC.,
Respondents.
————
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Federal Circuit
————
BRIEF OF HIGH TECH INVENTORS
ALLIANCE, HP INC., AND LENOVO
(UNITED STATES) INC. AS AMICI CURIAE
IN SUPPORT OF THE PETITIONER
————
STANLEY J. PANIKOWSKI
SEAN C. CUNNINGHAM
ERIN P. GIBSON
DLA PIPER LLP (US)
401 B Street, Suite 1700
San Diego, CA 92101-4297
(619) 699-2700

COURTNEY GILLIGAN SALESKI
Counsel of Record
DLA PIPER LLP (US)
One Liberty Place
1650 Market Street
Suite 4900
Philadelphia, PA 19103
(215) 656-2431
courtney.saleski@dlapiper.com

Counsel for Amici Curiae
February 13, 2020
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

TABLE OF CONTENTS
Page
INTEREST OF AMICI CURIAE ........................

1

SUMMARY OF THE ARGUMENT ....................

4

I. THIS
COURT’S
PRECEDENT
REQUIRES THE TRIAL COURT TO
ENSURE APPORTIONMENT OF DAMAGES BETWEEN PATENTED AND
UNPATENTED FEATURES ...................

6

II. THE FEDERAL CIRCUIT’S “PRIOR
LICENSES” SHORTCUT IS NOT
APPORTIONMENT AND THEREFORE
IS INCONSISTENT WITH THIS
COURT’S PRECEDENT...........................

8

III. IT IS IMPORTANT TO CORRECT THIS
LEGAL ERROR NOW ..............................

11

CONCLUSION ....................................................

15

(i)

ii
TABLE OF AUTHORITIES
CASES

Page(s)

Dowagiac Mfg. Co. v. Minn.
Moline Plow Co.,
235 U.S. 641 (1915) ...................................

7

eBay Inc. v. MercExchange, L.L.C.,
547 U.S. 388 (2006) ...................................

11

Elbit Systems Land & C4I Ltd. v. Hughes
Network Systems, LLC,
927 F.3d 1292 (Fed. Cir. 2019) .................

8, 9

Ericsson, Inc. v. D-Link Systems, Inc.,
773 F.3d 1201 (Fed. Cir. 2014) .................

9

Garretson v. Clark,
111 U.S. 120 (1884) ................................... 5, 6, 9
Georgia-Pacific Corp. v. United States
Plywood Corp.,
318 F. Supp. 1116 (S.D.N.Y. 1970)...........

7

Seymour v. McCormick,
57 U.S. 480 (1853) .....................................

7

Sprint Communications Company, L.P. v.
Time Warner Cable, Inc.,
760 F. App’x 977 (Fed. Cir. 2019) .............

9

Uniloc USA, Inc. v. Microsoft Corp.,
632 F.3d 1292 (Fed. Cir. 2011). ................

14

STATUTES
35 U.S.C. § 284 ............................................. 4, 10
RULES
Fed. Cir. R. 36 ...............................................

14

INTEREST OF AMICI CURIAE
Pursuant to Supreme Court Rule 37.2, amici curiae
High Tech Inventors Alliance, HP Inc., and Lenovo
(United States) Inc. respectfully submit this brief as
amici curiae in support of the petition for certiorari
with respect to the first question presented (damages).1
The High Tech Inventors Alliance (“HTIA”) is a coalition of high technology companies that was created to
advocate on patent law and policy issues.2 HTIA
members are some of the most innovative technology
companies in the world, creating the computer, software,
semiconductor, and communications products and
services that support growth in every sector of the
economy. HTIA members invest over $100 billion in
research and development each year and collectively
hold more than 300,000 patents. HTIA is a strong
supporter of the patent system and of effective patent
protection. At the same time, its members—like many
successful technology companies—have frequently been
defendants in suits brought by increasingly sophisticated
non-practicing entities seeking a return on litigation
as a portfolio investment strategy.
HP Inc. is a global leader in innovative personal
computing devices, printers, 3D printing, and related
services and solutions. HP owns over 27,000 patents

1

Pursuant to Supreme Court Rule 37.6, amici certify that no
counsel for a party authored this brief in whole or in part, and
that no such counsel or party (other than amici or their counsel)
made a monetary contribution to the preparation or submission
of this brief. Counsel of record for all parties received timely
notice of the intent to file this brief and consented to its filing.
2

HTIA is described at https://www.hightechinventors.com/.
HTIA members are Adobe, Amazon.com, Cisco, Dell, Google,
Intel, Microsoft, Oracle, Salesforce, and Samsung.

2
and is also targeted as a defendant in patent infringement lawsuits.
Lenovo (United States) Inc. and its affiliates manufacture one of the world’s widest portfolios of connected
products and data center solutions, and collectively
run more than 40 research and development laboratories
and employ over three thousand R&D professionals.
The Lenovo group of companies own more than 13,700
patents and are also targeted as defendants in patent
infringement lawsuits.
Accordingly, amici have a strong interest in a patent
system that balances the rights of both patent owners
and producers who are accused of infringement. This
interest includes ensuring that patent damages awards
are based on reliable methodologies and circumscribed
by principles of apportionment that this Court has
held to be required in patent cases.
Being simultaneously patent owners and producers,
HTIA members and the other amici have extensive
experience as both licensors and licensees of intellectual property. HTIA members and the other amici are
thus familiar with the many complex, circumstancespecific factors and interests—economic, technical,
litigation-induced, and strategic—that go into every
license or cross-license negotiation. They also must
grapple with the interplay between license negotiations and patent damages awards. Often, a company
accused of patent infringement will agree to terms of
a license that is acceptable in the short term for that
company, and even allow the patent holder to insert
self-serving language that does not affect the practical
obligations for the current licensee, but can be used
by the patent owner in later litigation against other
companies. These licenses are then given excessive
significance in later litigation, distorting patent damages

3
calculations. Courts must therefore ensure careful
treatment of licenses in patent damages litigation.
The topic is especially unsuitable for overbroad assumptions like the one the Federal Circuit has embraced here.
The effect of patent damages jurisprudence on both
litigation and licensing is considerable. Perhaps no
principle of that jurisprudence is more important than
apportionment: if a patentee secures a damages award,
then the award must reflect no more than the value of
the patented technology in the accused products. A
patentee cannot recover any portion of the product’s
value attributable to its unpatented features. In the
realm of computer software and hardware, the existence of many features and functionalities within a
single program or device makes the rigorous application
of apportionment principles especially crucial. A
patentee is not permitted to recover damages on any
portion of the innovations attributable to the producer
or to other third parties. If even one loophole to this
Court’s invariable rule of apportionment is allowed,
then innovation and economic production can be unfairly
taxed and chilled by inflated patent damages awards.
The Federal Circuit has created such a loophole by
permitting patentees to rely on past licenses in a
manner that completely circumvents apportionment
principles.
Specifically, the Federal Circuit has
codified an assumption that any license has “built in”
apportionment such that the value of an accused
product that is attributable to unpatented features
need not be addressed with case-specific economic
evidence. This approach allows damages awards that
go far beyond compensation for use of the patented
technology itself. The Federal Circuit’s rule thus
conflicts with this Court’s precedent and the Patent
Act. In addition, this approach reflects a blanket

4
assumption about the behavior of parties to license
agreements that simply does not comport with the
realities, nuances, and variety of real-world license
negotiations, especially when many of these licenses
are entered into during or under threat of litigation.
This case, in which this non-apportionment methodology yielded nearly a half-billion dollar damages
award, puts the “prior license” loophole to apportionment squarely at issue. This Court should grant
review to close it.
SUMMARY OF THE ARGUMENT
This Court’s precedents require apportionment to
support patent damages claims. Apportionment is
needed to separate the value of the patented features
of the accused products from their unpatented features. The purpose is to ensure that any recovery by
the patentee is limited to the economic footprint of the
patented invention in the market place for the accused
products. Otherwise, patentees might reap an unjustified windfall from the innovations of others, including
the accused producer. Such windfalls would impose a
tax on innovation that is inconsistent with the compensatory aim of the Patent Act. See 35 U.S.C. § 284
(“Upon finding for the claimant the court shall award
the claimant damages adequate to compensate for the
infringement, but in no event less than a reasonable
royalty for the use made of the invention by the
infringer, together with interest and costs as fixed by
the court.”) (emphasis added).
In theory, no one—not the parties, not the Federal
Circuit—disagrees that apportionment is required
in this and every other patent damages case. The
problem is that the Federal Circuit has authorized a
shortcut that it labels “apportionment,” but which in

5
reality involves no apportionment at all. Specifically,
it has blessed a damages methodology that enables
patentees to identify a per-unit royalty based solely on
patent licenses involving different parties and products,
and serve up to the jury that same per-unit royalty,
taking no account of the different value that unpatented features contribute to the particular accused
products. According to the Federal Circuit, this methodology subsumes apportionment because the parties to
the “comparable” license agreements are assumed to
have apportioned in negotiating that license.
Courts, however, have a duty under Garretson to
ensure that apportionment occurs on the basis of the
relative contributions of the specific patented and
unpatented features of the particular accused products
in the case. Courts cannot outsource this duty to
the past actions of parties to other licenses involving
different accused products.
This legal error not only skews damages awards
upward, but it also gives patentees an incentive to
selectively identify licensing partners to create artificially favorable license agreements. For example, a
patentee may seek to first license wireless technology
to a small chip manufacturer for whom the patented
technology is a critical component. The chip manufacturer may be willing to pay a high royalty given the
cost of litigation and the risks to the manufacturer
from a loss. Then, armed with a high per-unit royalty,
the patentee may seek the same number from a laptop
manufacturer further down the supply chain. But the
value to the laptop manufacturer of the patented wireless technology—one feature among many, implemented
by one component among hundreds—is likely to be
much less than it was to the chip manufacturer. Or
the patentee might seek out low-volume (or even no-

6
volume) licensees willing to enter into agreements that
are low in total dollars but high in effective royalty
rate. For example, a licensee that sells only 1,000 units
likely would be willing to accept a license for $10 a unit
(for a total payment of $10,000) rather than litigate,
because the total cost of the license is far less than the
expected litigation costs. And, although the license
royalty rate reflects only the value to the licensee of
avoiding litigation, the patent owner is then able to
claim it has a $10 per unit royalty in a subsequent suit
against a manufacturer that sells millions of units per
year.
Absent an apportionment analysis that is individualized to the particular defendant and accused products
in suit, such license agreements become evidentiary
super-weapons in patent litigation. Even when the
rates are purportedly “adjusted” in a “comparability”
analysis, such licenses can be used to set an overly
high boundary within which the jury may then operate
in calculating damages. Only a rigorous application
of apportionment principles—parsing the value of
patented and unpatented features in the context of the
specific accused products at issue and avoiding assumptions about the context of a particular license—can
rein in this process. Review is warranted to avoid
these consequences by restoring fidelity to the Patent
Act and this Court’s precedents.
I. THIS COURT’S PRECEDENT REQUIRES
THE TRIAL COURT TO ENSURE APPORTIONMENT OF DAMAGES BETWEEN
PATENTED AND UNPATENTED FEATURES
In every patent infringement case, this Court requires
apportionment of damages between patented and unpatented features of the accused products. See Garretson

7
v. Clark, 111 U.S. 120, 121 (1884) (“‘The patentee . . .
must in every case give evidence tending to separate
or apportion the defendant’s profits and the patentee’s
damages between the patented feature and the unpatented features.’”); see also Dowagiac Mfg. Co. v. Minn.
Moline Plow Co., 235 U.S. 641, 646 (1915) (espousing
same rule); Seymour v. McCormick, 57 U.S. 480, 49091 (1853) (espousing same rule). Any patent damages
analysis, therefore, needs an inquiry into the relative
extents to which patented and unpatented features
drive demand or otherwise account for the value of the
accused product. Comparable real-world licenses, where
available, can be a relevant factor in that analysis. See
Georgia-Pacific Corp. v. United States Plywood Corp.,
318 F. Supp. 1116, 1120 (S.D.N.Y. 1970). But nothing
in this Court’s precedent suggests that reliance on
real-world licenses alone automatically satisfies the
apportionment requirement.
Nor does practical reality support such an assumption. As HTIA members and the other amici can attest
from experience, patent license agreements are the
product of a variety of circumstance-specific factors
and interests. Negotiations can be undertaken under
various pressures—the pressure of a product release,
the pressure of a jury trial, the pressure of avoiding
litigation in order to focus on more pressing business
matters—and the final product often reflects an uneasy
compromise between the interests of the parties to the
particular agreement. Even when examining one particular agreement, it may be difficult to answer whether
and how any “apportionment” in fact occurred. It is
that much less appropriate to assume automatically
that it occurs all the time. And even if license parties
use some form of “apportionment” in negotiating a
rate, that cannot satisfy the apportionment requirement

8
in litigation involving different parties, patents, and
accused products.
II. THE FEDERAL CIRCUIT’S “PRIOR
LICENSES”
SHORTCUT
IS
NOT
APPORTIONMENT AND THEREFORE IS
INCONSISTENT WITH THIS COURT’S
PRECEDENT
While recognizing in theory a court’s duty to hold
patentees to their burden of apportionment, the
Federal Circuit has in practice created an exception to
apportionment in reasonable royalty cases.
This legal error manifests itself clearly in Elbit Systems
Land & C4I Ltd. v. Hughes Network Systems, LLC,
927 F.3d 1292 (Fed. Cir. 2019). In Elbit, the Federal
Circuit determined that the jury properly relied on the
patentee’s damages expert’s use of a per-unit royalty
figure from a prior license agreement “for one-way
technology, together with [accused infringer]-based
evidence that two-way technology was worth at least
an additional 20%, to arrive at [a] proposed per-unit
figure.” Id. at 1300. The court of appeals went
astray in holding that this analysis alone satisfied the
apportionment requirement on the theory that apportionment “‘is essentially embedded in [the] comparable
value’ from the [prior license] Agreement concerning a
comparable component of a larger product or service.”
Id. at 1301. The court likewise embraced the patentee’s
damages expert’s testimony that the “‘requisite apportionment is implicitly considered within the royalty
rate’” of the prior license agreement. Id. “Rather than
‘parse out a value for each of the claims,’” the expert
“‘came up with a market, comparable royalty rate, and
then [he] adjusted it as necessary’ for the hypothetical
negotiation.” Id. (alteration in original).

9
The Federal Circuit maintained that the patentee
had properly used the prior license to “fulfill the
apportionment requirement.” Id. But the court
did not point to any evidence bearing on the
apportionment of value “between the patented feature
and the unpatented features” of the accused products
as this Court requires, Garretson, 111 U.S. at 121
(emphasis added). The Federal Circuit instead held
that, in using the prior license agreement “as his
starting point, [the expert’s] analysis could reasonably
be found to incorporate the required apportionment.”
Elbit, 927 F.3d at 1301; accord Sprint Communications
Company, L.P. v. Time Warner Cable, Inc., 760 F.
App’x 977, 983-84 (Fed. Cir. 2019) (“[D]amages testimony regarding real-world relevant licenses ‘takes
into account the very types of apportionment principles contemplated in Garretson.’” (quoting Ericsson,
Inc. v. D-Link Systems, Inc., 773 F.3d 1201, 1227-28
(Fed. Cir. 2014))). This automatic assumption of apportionment, which likewise supported the summary
affirmance in this case, is not the same as the performance of apportionment that this Court’s precedents
require. Apportionment requires an individualized
assessment that takes into account the value of both
patented and unpatented features to the specific accused
products in the case. See Garretson, 111 U.S. at 121.
The Federal Circuit’s approach is inconsistent with
this requirement because it allows a patentee to
bypass any proof of the relative technical and economic
contributions of the patented and unpatented features
to the actual accused products.
Moreover, this blanket assumption about “realworld” licenses does not itself reflect the real world.
There may be substantial differences both in the motivations of the parties to the license and to the license
structure itself even in situations with the same

10
licensor, the same patents, and different licensees in
the same product market. Even renegotiation of a
license between the same exact parties at the end of
the initial license’s term may result in a substantially
different effective royalty rate due to circumstances
having nothing to do with the relative contributions of
patented and unpatented features to the licensed
products. Litigation avoidance, the desire to protect
downstream customers from licensing demands and
potential lawsuits, the value of any other rights or
assets that may be exchanged in the license agreement, changes in statutory or case law, and various
economic and strategic considerations may shape the
outcome. If the effective royalty rate can vary by an
order of magnitude in these situations, then it is
unrealistic to suppose that the Federal Circuit’s comparability requirement (where the prior license often
involves different parties, different products, and
different patents) can substitute for the individualized
apportionment that this Court’s precedent and § 284
of the Patent Act require. There is too much complexity and variety in those negotiations and their outcomes
to support a blanket assumption that the parties
negotiated a license rate that separates the value of
the patented technology from the value of the unpatented features in the licensed products.
Accordingly, there are no universal truths about
whether parties “build in” apportionment, nor how
and to what extent apportionment is or is not achieved
when one or both parties pursue some approximation
of it. When licenses are sufficiently comparable to be
admissible and properly adjusted to be usable in a
particular case, they may supply one piece of market
information that informs what compensation is due for
the use of a patented invention under 35 U.S.C. § 284.
But to assume that prior licenses have already accom-

11
plished the work of apportionment that the patentee
is required to perform in the particular case at hand
is far too much weight for the variable enterprise of
patent licensing to bear. This Court should grant
review to restore licenses to their previous place as a
tool—not a talisman—in the damages analysis.
III. IT IS IMPORTANT TO CORRECT THIS
LEGAL ERROR NOW
Review should be granted to uphold the apportionment requirement and restore the use of prior licenses
to their proper place in a patent damages analysis.
Prior licenses of course can be a factor in the analysis,
but they are not a super-factor that can simply substitute for true apportionment between patented and
unpatented features of the accused product at issue.
Multiple practical problems flow from the Federal
Circuit’s endorsement of this non-apportionment
methodology.
First, the Federal Circuit’s rule confers undue leverage on patentees. The mere threat of extracting a
portion of a product’s value that is not carefully tied to
the (often very small) patented contribution may lead
inefficiently to settlements far out of proportion with
economic reality. This is particularly harmful where
the value of the allegedly infringing product is due
largely to the accused manufacturer’s own innovation,
while the value of the earlier-licensed product was
more closely tied to the patented invention. This
result is inconsistent with the compensatory purpose
of patent damages and upsets the balance between
access to ideas and incentives for innovation that the
patent system is designed to achieve. It is also a
familiar problem that this Court’s patent jurisprudence has assuaged in other contexts. See eBay Inc. v.
MercExchange, L.L.C., 547 U.S. 388, 396-97 (2006)

12
(“When the patented invention is but a small component of the product the companies seek to produce and
the threat of an injunction is employed simply for
undue leverage in negotiations, legal damages may
well be sufficient to compensate for the infringement
and an injunction may not serve the public interest.”)
(Kennedy, J., concurring).
Especially in technology fields in which HTIA
members and the other amici innovate and compete,
products with numerous components and seemingly
countless features are now commonplace. These features
are often implemented by components manufactured by
third parties extending along a lengthy supply chain.
So the risk of compensating patentees for the value of
features in the specific accused product, unrelated to
the asserted patented technology, is higher than ever.
This does not mean, of course, that absolute precision
must be demanded before any damages may be awarded.
But the inflexible, overbroad assumption that was
applied in this case errs to the opposite extreme. As
this shortcut continues to grow in prominence and
success for patentees, the previously-required path to
apportionment—economic analysis of the value attributable to patented, as opposed to unpatented, features in
the actual accused products—will become increasingly
abandoned.
The larger damages verdicts that this shortcut
allows, in turn, will confer greater leverage on patentees in license negotiations. Then the elevated royalty
rates that may emerge from those negotiations will be
used in litigation to propel an inexorable upward
spiral in damages awards. This feedback loop between
license rates and damages awards makes it especially
appropriate for this Court to grant review of this issue
now. The misuse of licensing in litigation paves the

13
way for the threat of litigation to be misused in
licensing. Whether the excessive amounts are paid in
the form of damages or license rates, the result is the
same: a tax on producers’ own innovations, one of the
very things apportionment principles exist to avoid.
Nor is it a good answer to say that these concerns
will all come out in the wash of a “comparability”
analysis. See Section II, supra. Comparability (a
binary determination as to whether the circumstances
of a prior license are similar to the case at hand) is
not the same thing as apportionment (the separation
of value between patented and unpatented features
with respect to a specific accused product). Yet the
damages methodology endorsed by the Federal Circuit
allows comparability to swallow apportionment whole
without actually digesting it.
Likewise, the rule applied in this case encourages
collusive or sham licenses that at least nominally
reflect an inflated royalty rate. Such rates, in turn,
can be improperly used to raise the bar for damages
awards against other producers because they will be
automatically deemed to “build in” apportionment. As
the Federal Circuit’s blanket assumption has taken
root, patentees have even greater incentive to seek out
one or more licensees who will agree to a high effective
royalty despite paying few (sometimes zero) actual
dollars. These artificially inflated licenses then become
the anchors of damages presentations to the jury. The
relative value of the patented and unpatented features
of the particular accused products remains unaccounted.
And these artificial license rates, unencumbered by
actual apportionment for the case at hand, improperly
“skew the damages horizon for the jury, regardless of
the contribution of the patented component . . . ,”

14
Uniloc USA, Inc. v. Microsoft Corp., 632 F.3d 1292,
1320 (Fed. Cir. 2011).
Second, the disproportionate damages awards that
the Federal Circuit’s rule permits can cause especially
severe problems of damages stacking that will deter
production and innovation. Manufacturers and sellers
are often subject to multiple lawsuits by separate
parties asserting different patents against the same
product, and may face the threat of multiple damages
awards on those products. It is bad enough when
one patentee receives a monetary windfall from the
contributions that others have made to the value of an
accused product. It is that much worse when multiple
patentees make withdrawals from this account that
properly belongs to someone else. This is especially
problematic for producers like HTIA’s members and
the other amici, who constantly confront defensive
patent litigation and licensing demands, and depend
upon a rational regime of patent remedies that will not
force cumulative payments that altogether exceed the
value of their products.
Far from making this case unsuitable for review, the
Federal Circuit’s Rule 36 affirmance confirms that it
has spoken definitively on this question. Given the
Federal Circuit’s exclusive jurisdiction over patent
cases, there is also no realistic possibility of a circuit
split. As a result, no further percolation of the issue
can reasonably be expected in the courts of appeals.
Nor is it required. The issue is ripe and squarely
presented in this case.
The black boxes of jury verdicts and Rule 36
affirmances cannot absolve the Federal Circuit’s legal
error that excuses genuine apportionment of patent
damages in a broad class of cases. That is especially
so here, where the black box contains no evidence

15
uninfected by the legal error that could have supported
the damages verdict. The petition for certiorari squarely
presents a pure question of patent damages law that
calls for immediate resolution of the clear conflict with
this Court’s precedent. There is no reason to wait for
another case to come along. Review is needed now to
prevent continued bypassing of this Court’s apportionment requirement.
CONCLUSION
Amici respectfully ask this Court to grant the
petition for certiorari to address the important question
relating to apportionment of damages in patent cases.
Respectfully submitted,
STANLEY J. PANIKOWSKI
SEAN C. CUNNINGHAM
ERIN P. GIBSON
DLA PIPER LLP (US)
401 B Street, Suite 1700
San Diego, CA 92101-4297
(619) 699-2700

COURTNEY GILLIGAN SALESKI
Counsel of Record
DLA PIPER LLP (US)
One Liberty Place
1650 Market Street
Suite 4900
Philadelphia, PA 19103
(215) 656-2431
courtney.saleski@dlapiper.com

Counsel for Amici Curiae
February 13, 2020

